HHS/OIG, Audit -"Audit of the Missouri Department of Social Services Claim for
Title IV-E Training Costs,"(A-07-02-02002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Missouri Department of Social Services Claim for
Title IV-E Training Costs," (A-07-02-02002)
March 10, 2006
Complete
Text of Report is available in PDF format (823 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of Title IV-E training
costs claimed by the Missouri Department of Social Services (State agency) for the period
July 1, 1999, through June 30, 2002.  The State agency did not always follow Federal
regulations regarding allowability of costs, resulting in overstated Title IV-E training
costs of $15,256,317 (Federal share).
We recommended that the State agency:  (1) adjust its next Federal
Quarterly Report of Expenditures to reduce Federal reimbursement claimed for Title IV-E training
by $15,256,317, (2) work with ACF to determine the amount of unallowable training costs claimed
at the 75‑percent Federal reimbursement rate that are claimable and allowable as Title
IV-E administrative costs at the 50‑percent rate, (3) develop and implement internal
controls to ensure that only allowable training costs are claimed as Title IV-E training
costs in the future, and (4) review Title IV-E training costs claimed subsequent to our audit
period for the issues identified and make the appropriate adjustments.  The State agency
disagreed with our recommendations and four of our six
findings.